<html>
<title> - U.S. POLICY TOWARD SYRIA (Part I)</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]



 
                   U.S. POLICY TOWARD SYRIA (PART I)

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                    THE MIDDLE EAST AND NORTH AFRICA

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 27, 2018

                               __________

                           Serial No. 115-168

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
        
        
        
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]        
        
        


Available: http://www.foreignaffairs.house.gov/, http://docs.house.gov, 
                       or http://www.Govinfo.gov

                                 ______
                                 
                                 
                  U.S. GOVERNMENT PUBLISHING OFFICE
                   
32-306 PDF                 WASHINGTON : 2018                                       
                                 
                                 
                                 
                                 
                                 
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM R. KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID N. CICILLINE, Rhode Island
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                LOIS FRANKEL, Florida
SCOTT PERRY, Pennsylvania<greek-l>   TULSI GABBARD, Hawaii
RON DeSANTIS, Florida [until 9/10/   JOAQUIN CASTRO, Texas
    18] deg.                         ROBIN L. KELLY, Illinois
MARK MEADOWS, North Carolina         BRENDAN F. BOYLE, Pennsylvania
TED S. YOHO, Florida                 DINA TITUS, Nevada
ADAM KINZINGER, Illinois             NORMA J. TORRES, California
LEE M. ZELDIN, New York              BRADLEY SCOTT SCHNEIDER, Illinois
DANIEL M. DONOVAN, Jr., New York     THOMAS R. SUOZZI, New York
F. JAMES SENSENBRENNER, Jr.,         ADRIANO ESPAILLAT, New York
    Wisconsin                        TED LIEU, California
ANN WAGNER, Missouri
BRIAN J. MAST, Florida
FRANCIS ROONEY, Florida
BRIAN K. FITZPATRICK, Pennsylvania
THOMAS A. GARRETT, Jr., Virginia
JOHN R. CURTIS, Utah
VACANT

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

            Subcommittee on the Middle East and North Africa

                 ILEANA ROS-LEHTINEN, Florida, Chairman
STEVE CHABOT, Ohio                   THEODORE E. DEUTCH, Florida
DARRELL E. ISSA,                     GERALD E. CONNOLLY, Virginia
    California<greek-l>              DAVID N. CICILLINE, Rhode Island
RON DeSANTIS, Florida [until 9/10/   LOIS FRANKEL, Florida
    18] deg.                         BRENDAN F. BOYLE, Pennsylvania
MARK MEADOWS, North Carolina         TULSI GABBARD, Hawaii
ADAM KINZINGER, Illinois             BRADLEY SCOTT SCHNEIDER, Illinois
LEE M. ZELDIN, New York              THOMAS R. SUOZZI, New York
DANIEL M. DONOVAN, Jr., New York     TED LIEU, California
ANN WAGNER, Missouri
BRIAN J. MAST, Florida
BRIAN K. FITZPATRICK, Pennsylvania
JOHN R. CURTIS, Utah
VACANT
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Ms. Hanin Ghaddar, Friedmann visiting fellow, The Washington 
  Institute for Near East Policy.................................     6
Mr. Nicholas Heras, fellow, Middle East Security Program, Center 
  for a New American Security....................................    20
Ms. Mona Yacoubian, senior advisor for Syria, Middle East and 
  North Africa, U.S. Institute of Peace..........................    46

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Ms. Hanin Ghaddar: Prepared statement............................     8
Mr. Nicholas Heras: Prepared statement...........................    22
Ms. Mona Yacoubian: Prepared statement...........................    48

                                APPENDIX

Hearing notice...................................................    70
Hearing minutes..................................................    71
The Honorable Brendan F. Boyle, a Representative in Congress from 
  the Commonwealth of Pennsylvania: Material submitted for the 
  record.........................................................    72
The Honorable Gerald E. Connolly, a Representative in Congress 
  from the Commonwealth of Virginia: Prepared statement..........    81


                   U.S. POLICY TOWARD SYRIA (PART I)

                              ----------                              


                      THURSDAY, SEPTEMBER 27, 2018

                     House of Representatives,    

           Subcommittee on the Middle East and North Africa,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 1:30 p.m., in 
room 2172, Rayburn House Office Building, Hon. Ileana Ros-
Lehtinen (chairman of the subcommittee) presiding.
    Ms. Ros-Lehtinen [presiding]. The subcommittee will come to 
order.
    Thank you so much for your patience. As a person who lost 
her native homeland, Cuba, to communism, where we don't have 
elections, I always say that it is wonderful to get interrupted 
by elections and by votes. So, I never complain. But that is 
why we are so late in getting started.
    Thank you to the witnesses for your patience and to the 
audience members as well.
    Ranking Member Ted Deutch was going to be here to at least 
give his opening remarks. He has a conflicting committee 
scheduled at the same time. But, because of the timing with the 
earlier votes at 1:30, he is now going to not be able to come. 
But, I don't know, I think that we have glammed it up by having 
Mr. Boyle sit in for Mr. Deutch. Don't tell him that, okay?
    So, we will give our opening statements, and then, we will 
recognize other members seeking recognition for 1 minute. We 
will then hear from our witnesses.
    Thanks for your patience.
    Without objection, your prepared statements will be made a 
part of the record.
    Members may have 5 days to insert statements and questions 
for the record, subject to the length limitation in the rules.
    The chair now recognizes herself for 5 minutes.
    It has now been over 8 months since former Secretary of 
State Tillerson outlined the administration's strategy in 
Syria, and over 4 months since Secretary Pompeo outlined the 
administration's strategy for Iran; a big piece of which 
included the complete withdrawal from Syria of all forces under 
Iranian command. Yet, despite some recent and welcomed changes 
in the administration's approach to Syria, there are still more 
questions than answers about exactly what we hope to achieve 
and how we plan on achieving those goals.
    So, this hearing is part one of two. And it is designed to 
allow our members to hear from three expert witnesses, all of 
whom will provide their perspectives on recent events as well 
as their recommendations going forward.
    The second part, which we hope to reschedule with the State 
Department and USAID soon, will allow members to hear directly 
from the administration and perform our necessary oversight 
role. As you know, we did have the State Department witness 
scheduled, but, then, votes were cancelled. So, we had to scrap 
that hearing.
    Two weeks ago, we were on the precipice of a large-scale 
humanitarian disaster in Idlib Province, a disaster potentially 
worse, as hard as it is to imagine, than anything Syria had 
seen before. And while that disaster has been averted for now, 
through a Russian-Turkish agreement for a demilitarized zone, 
there is no telling exactly how long that will hold.
    I look forward to our witnesses' perspective on this 
agreement: What they see holding it together, what factors may 
cause it to fall apart. More broadly, I am hoping to hear what 
you believe the U.S. role should be, not just in Idlib, but 
Syria as a whole. The State Department's new Special 
Representative for Syria Engagement, former U.S. Ambassador to 
Turkey, Jim Jeffrey, has said that the United States is going 
to take a more active approach and that we are potentially 
entering a new phase, as he called it, with forces from the 
United States, Israel, Russia, Iran, and Turkey facing each 
other.
    Many people have been describing Syria has the new great 
game after British and Russian competition over Central Asia in 
the 19th century. While today's great power rivalry in Syria 
has many of the same players, it is no less tragic with at 
least \1/2\ million killed, likely many more millions of 
refugees, untold crimes, hardships against the people of Syria. 
And when you add China to the equation, which has reportedly 
offered the Assad regime both military cooperation and 
reconstruction assistance, well, you have every great power as 
well as the lesser ones trying to carve out a role in Syria.
    Yesterday, in a hearing of the House Armed Services 
Subcommittee on Oversight and Investigations, Assistant 
Secretary for Defense, Robert Karem, described U.S. strategy in 
Syria this way:

        ``The United States also seeks a peaceful resolution to 
        the multifaceted conflict in Syria in a manner that 
        protects U.S. interests, preserves a favorable regional 
        balance of power, protects our allies and partners, and 
        alleviates suffering.''

    No doubt, these objectives are noble and they are correct, 
but what they are not: Is a strategy. How does the United 
States plan to achieve a peaceful resolution to the conflict? 
What is a favorable regional balance of power with respect to 
Syria? And how do we protect our allies and partners and 
alleviate suffering?
    The administration owes the American people clear answers 
to these questions, especially when we still have U.S. men and 
women in Syria, and in harm's way. The road ahead will not get 
any easier.
    As National Security Advisor John Bolton said this week, 
``Russia's planned sale of S-300 air defense systems to the 
Assad regime represents,'' what he called, ``a significant 
escalation.'' And any hope that Russia would pressure Assad 
into requesting Iran's withdrawal, always a long shot, appears 
abandoned. These countries are digging into Syria, preparing 
for the long haul, and the implications for U.S. interests and 
those of our partners are still coming into focus.
    I am looking forward to hearing from you: Exactly how you 
see Syria playing out in the months and years ahead, as well as 
hearing any recommendations you have for giving the United 
States the best chance of these noble goals that we seek.
    And with that, I am very pleased to yield to the ranking 
member for today's hearing, Mr. Boyle of Pennsylvania.
    Mr. Boyle. Thank you.
    And, Madam Chair, regarding your earlier comments about Mr. 
Deutch, I can't say I necessarily agree, but you are known to 
be very wise. So, I will just leave it at that. [Laughter.]
    Thank you, and I am very glad to have this hearing.
    U.S. policy toward Syria is difficult for everyone to 
address. It was for the Obama administration, and it is now for 
the Trump administration. More than 7 years into this conflict, 
clarity is needed now more than ever, not more fog. The Trump 
administration must present to Congress, finally, a 
comprehensive strategy for Syria. So, far it has not, and the 
President continues to undercut his administration with 
conflicting statements.
    What started as peaceful protests in March 2011, is now an 
international conflict. I was recently on television, and I 
actually called it ``a mini-world war,'' when you consider just 
how many of the world's major actors are participating in this 
conflict. One of those, Vladimir Putin, continues to prop up 
the Assad regime, with also the support of Iran.
    As a result of the war, more than 500,000 civilians have 
been killed. That number, by the way, is badly out of date. We 
still don't know really what the actual number is. And we do 
know that more than 11 million people have been displaced: 6\1/
2\ million Syrians internally and more than 5 million have been 
forced to flea the country, destabilizing not just to Syria, 
but also to many European countries.
    Yet, despite this, Assad continues to slaughter his people 
and destroy their cities. Idlib is currently the last 
stronghold for the Syrian opposition. Idlib hosts an estimated 
3 million civilians, most of whom are displaced from other 
regions of Syria.
    While an immediate offensive by the regime appears for the 
moment to be on hold, the question of Assad's future use of 
chemical weapons, and his other atrocious tactics, hangs heavy 
on the international community. The administration has 
threatened to respond ``swiftly and appropriately'' if Assad 
again uses chemical weapons. The threat, once again, makes us 
scratch our heads. Isn't this where we were in April 2017 and 
again in April of this year? What has changed? What kind of 
response is the administration considering?
    In September, the U.N. stated that a mass assault on Idlib 
could result in, and I quote, ``the biggest humanitarian 
catastrophe we've seen for decades,'' certainly the biggest in 
the 21st century. The U.N. has described conditions for 
civilians in Idlib as ``dire'' and stated, ``Conflicting 
parties must cease and refrain from future use of 
indiscriminate weapons or tactics to target thousands of 
fighters interspersed among the 3 million civilians, including 
1 million children.''
    Compounding the situation in Idlib is the administration's 
decision to reprogram more than $200 million for stabilization 
assistance for Syria. This funding includes services for water 
and electricity, independent media, and governance projects. 
These programs reach millions of people and helped bolster 
civilian efforts to build freedom, democracy, and resiliency 
against violent ideology.
    I strongly oppose this decision. This funding is essential 
to the long-term security of the United States and our regional 
allies. As we enter the final stage in our fight against ISIS, 
it is imperative that we counter radicalization.
    The humanitarian crisis also poses significant questions 
for the U.S. and our regional allies. As the UNHCR High 
Commissioner Grandi said, ``Syria is the biggest humanitarian 
and refugee crisis of our time.'' It is a continuing case of 
suffering for millions, which should be garnering a groundswell 
of support around the world. But the U.N.'s humanitarian pleas 
hit deaf ears; particularly from this administration, which 
slashed refugee admission levels to the United States.
    Seizing on this fatigue, the Assad regime seeks the prompt 
return of refugees. Humanitarian advocates argue the situation 
on the ground is far from being safe enough for refugees to 
return. The international community must take into account 
these prevailing difficult conditions and potential political 
persecutions.
    So, with the weight of these issues to be addressed, 
enormous, the question is: What can we do? In Congress 
yesterday, I am pleased the Senate Foreign Relations Committee 
marked up H.R. 1677, the Caesar Syria Civilian Protection Act 
of 2017; which is critical for investigating war crimes and 
holding the Assad regime accountable. I encourage my Senate 
colleagues to pass this legislation as soon as possible.
    But this bill really is only a drop in the bucket. There 
are no easy answers in Syria, but that doesn't mean we can 
throw up our hands and think America first and go home. Our 
decisions now will impact Americans in the future. U.S. 
leadership and engagement in Syria is needed now more than 
ever.
    So, I look forward to today's panel that is here with us to 
discuss this critical issue.
    Thank you, and I yield back.
    Mr. Kinzinger [presiding]. The gentleman yields back.
    The chair now recognizes himself for an opening statement. 
I will just keep it very brief.
    We all know the terrible situation in Syria, and I feel 
like for the whole time I have been in Congress I have been 
repeating myself on the tragedy; and the numbers have gotten 
bigger, the tragedy has gotten worse, and inaction has 
continued. I give this administration a lot of credit for 
making a very strong stand in Idlib and talking about the 
consequences in no uncertain terms. I give this administration 
a lot of credit for finally enforcing red lines against the use 
of chemical weapons, which has never been accepted on the 
battlefield since World War I, until 2013 without consequence; 
which I think was a massive mistake. And that is not to point 
fingers in the past, but to learn from it, and to learn what 
the United States can do that both hurts and helps.
    I would love to see over Syria a no-fly zone. I would love 
to see a negotiated solution that does not include Russia, a 
Russian presence, and definitely not an Iranian presence in 
Syria. But we know that we find ourselves in a very tough 
situation.
    So, I look more forward to hearing from the witnesses than 
anything today.
    With that, I will yield back my time and recognize the 
gentleman from Illinois, Mr. Schneider, for 1 minute.
    Mr. Schneider. Thank you, and I want to thank the 
subcommittee for having this hearing today, this critical 
hearing.
    This crisis is in its seventh year, and it becomes evermore 
devastating, evermore concerning. And as the witnesses, having 
read your submitted testimony, will touch on, that the hard 
parts still may lie ahead of us, not behind us.
    But I think the United States interest in Syria can be put 
into three buckets: Humanitarian, security, and strategic. And 
as, Mr. Heras, you are going to elucidate, I assume from your 
submitted testimony, there is an incoherence in the U.S. 
approach that has sent mixed signals that has left the 
situation increasingly problematic.
    We need from the United States a coherent vision for the 
future of Syria. We need, as the United States, to articulate 
specific goals we are seeking to achieve. And we need to 
develop a very concrete and specific strategy for achieving 
those goals. I think it is imperative that Congress be engaged 
in this discussion and that Congress take action, as we 
continue to look forward.
    This hearing is an important chance for the Members of 
Congress to hear your perspective. I look forward to what you 
are going to share with us today, and I, again, thank you for 
taking the time to be here.
    Mr. Kinzinger. The gentleman yields back.
    I want to, again, welcome our witnesses for being here 
today.
    I will introduce each of you, and then, I will turn to each 
to give your 5-minute opening remarks and, then, questions.
    First, we are delighted to welcome Ms. Hanin Ghaddar, the 
Inaugural Friedmann visiting fellow at The Washington Institute 
for Near East Policy. Ms. Ghaddar was a managing editor of NOW, 
the Lebanese-based news organization, and is a regular 
contributor to magazines and newspapers like The Wall Street 
Journal and The Washington Post. Previously, she was a non-
resident fellow at the Rafik Hariri Center at the Atlantic 
Council and a public policy scholar at the Woodrow Wilson 
International Center for Scholars.
    Thank you so much for being here today, and we look forward 
to your testimony.
    Next, we are also delighted to welcome Mr. Nicholas Heras, 
a fellow at the Center for New American Security and senior 
analyst at the Jamestown Foundation. Prior to joining CNAS, he 
joined as research associate at the National Defense 
University. Mr. Heras is a former national security education 
program David L. Boren fellow.
    Thank you for being here today, and we look forward to your 
testimony.
    And lastly, we are delighted to welcome back Ms. Mona 
Yacoubian, senior advisor for Syria, Middle East, and North 
Africa for the United States Institute of Peace. Previously, 
she served as Deputy Assistant Administrator in the Middle East 
Bureau at USAID and as North African Analyst in the Bureau of 
Intelligence and Research at the State Department.
    Thank you so much for being here as well, and we look 
forward to your testimony.
    And for all your names I messed up, I apologize.
    But, first, for 5 minutes, Ms. Ghaddar, if you would like 
to give your opening testimony?

STATEMENT OF MS. HANIN GHADDAR, FRIEDMANN VISITING FELLOW, THE 
           WASHINGTON INSTITUTE FOR NEAR EAST POLICY

    Ms. Ghaddar. Chairman, Ranking Member, and distinguished 
members of the committee, thank you very much for inviting me 
to testify today.
    In the past 8 years, Iran and its proxies have been 
threatening U.S. interests in Syria and paving the way for the 
resurgence of Sunni Jihadism. In my written testimony, I have 
gone into details of how Iran has entrenched in southern Syria 
and what the U.S. can do to counter its hegemony. But, for the 
sake of brevity, I will be summarizing my written statement.
    Iran has five main goals in Syria: Protect the Assad 
regime, increase its presence and influence in Syria, maintain 
Syria as the vital bridge between Iraq and Lebanon, get closer 
to the Golan Heights to create another potential front against 
Israel. And Iran used four tactical objectives to achieve these 
goals: One, secure the Lebanese-Syrian border to ensure the 
flow of weapons from Syria to Lebanon; two, create the 
paramilitary structure independent from the state's army, using 
the successful model of Hezbollah in Lebanon; three, protect 
Damascus as the regime's capital via systematic demographic 
changes. Sunni communities were pushed out to Idlib, for 
example, and were also replaced with pro-regime groups. The 
Assad regime issued a new Law No. 10 to legalize these changes; 
four, create religious centers and schools and buy up Syrian 
lands.
    However, these achievements are still fragile, and the 
United States could use Iran's weaknesses to push back. Many of 
these challenges are reflected in the evolution of its most 
prestigious proxy, Hezbollah. Hezbollah is training and leading 
all Iran-backed Shia militias. Its weapons arsenal grew and 
developed, and their fighting forces have swelled, but this 
growth came with many challenges.
    Hezbollah has lost many of its high-ranking commanders and 
well-trained fighters. Hezbollah's extensive military 
operations have forced the group to make budget shifts; 
thereby, limiting the group's ability to provide social 
services to its constituents. Hezbollah's involvement in a 
sectarian conflict has prompted a loss in broad Arabic backing. 
Hezbollah's fighting force has actually changed; the new 
fighter is mostly there for the financial rewards and, 
therefore, is less disciplined, less trained, less ideological, 
and less religious. He is, however, much more sectarian.
    These challenges provide a number of opportunities. Based 
on my long-term research, I believe creating economic 
alternatives for young Shia men and women could be very 
effective, while simultaneously limiting Hezbollah's military 
role in Syria and the region.
    In south Syria, the current presence of Syrian forces close 
to the Golan Heights would serve as a conduit for Hezbollah and 
other militias to quietly redeploy anytime they like. Israel is 
currently capable of protecting its border, but when Iran 
decides to launch a full-fledged war, the situation will become 
complicated. It is better to avoid such a war and find an 
alternative to prohibit Iran from infiltrating the south.
    As for the land bridge that connects Tehran to Beirut, it 
establishes an uninterrupted Iranian presence in Iraq, Syria, 
and Lebanon, which would add fire to the radical anti-Shia 
narrative espoused by the Islamic State. The bridge is very 
vulnerable in places where Sunni tribes are present. So, 
working with these tribes can help counter Iran.
    In addition, the U.S. can do the following to contain Iran: 
One, expose the Assad regime. In addition to killing more than 
400,000 Syrians and using chemical weapons against his own 
people, Assad is only helping Iran and Russia grow their 
influence in the region. Therefore, maintaining the line that 
Assad has to go is important, but also focusing the narrative 
on Assad's war crimes and his dependence on Iran is vital.
    Two, counter demographic changes. The United States can 
work with Europeans and other refugee host countries to ensure 
that refugees are allowed to return to their hometowns, 
maintain their land and properties, and guarantee safety along 
the way, and are not forced into mandatory conscription into 
Assad's army.
    Three, deepen work with local allies. If the United States 
maintained its presence, boosted coordination with local and 
regional partners, and increased its military footprint where 
Iran is mostly invested, this would fill a critical vacuum and 
deny Iran opportunities to expand. From the perspective of 
regional actors, American consistency and predictability are 
crucial. This means defining, communicating, and sticking to 
specific commitments.
    Finally, go after Hezbollah's Lebanese allies. Hezbollah's 
economy is cash-based, and sanctions will not significantly 
affect it. However, it could be effective to sanction 
Hezbollah's Lebanese allies who assist the organization in 
leading its regional wars from Lebanon.
    Thank you very much.
    [The prepared statement of Ms. Ghaddar follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    
                        ----------                              

    Ms. Ros-Lehtinen [presiding]. Thank you very much. Thank 
you for your testimony.
    Mr. Heras?

 STATEMENT OF MR. NICHOLAS HERAS, FELLOW, MIDDLE EAST SECURITY 
          PROGRAM, CENTER FOR A NEW AMERICAN SECURITY

    Mr. Heras. Madam Chairman, Mr. Ranking Member, and 
distinguished members of the subcommittee, thank you for the 
opportunity to discuss----
    Ms. Ros-Lehtinen. Mr. Heras, could you put your microphone 
just a little closer to your mouth? Thank you.
    Mr. Heras. Thank you for the opportunity to discuss U.S. 
policy toward Syria today.
    Since the United States began combat operations against 
ISIS in September 2014, it has amassed a zone of control that 
is nearly one-third of Syria's territory. With this zone, we 
have control or strong influence over the four major resources 
that are essential to stabilizing Syria: Water, oil, arable 
land, and electricity generation. The fact is, through our zone 
of control, we are as strong or as weak as we choose to be to 
influence the end game in Syria.
    The administration states that U.S. forces will remain in 
Syria indefinitely to oversee a successful stabilization 
mission in post-ISIS areas. Withdrawal of U.S. forces from 
Syria is also being tied to irreversible progress on the 
implementation of the Geneva process, which means a post-war 
government that has transitioned from Assad, and when Iran and 
its proxy forces have left Syria. In effect, the Trump 
administration is saying that it is our policy to remain in 
Syria indefinitely, until there is both regime change in 
Damascus and Iran has been forced from Syria.
    Our significant zone of control in Syria, and the 
administration's Syria policy goals, will be challenged by 
Assad's alliance, which includes Russia and Iran and, also, by 
Turkey. In 2018, Bashar al-Assad, with Russia and Iran's help, 
has been consolidating his control over most of western Syria. 
His major accomplishment was the capture of all territory in 
southwest Syria, bordering Israel and Jordan. Israel and Jordan 
relinquished their zones of control in southwest Syria to 
Russia, as a result of the collapse of the U.S.-negotiated 
southwest de-escalation zone, which the United States 
ultimately decided not to defend. These events further 
established Russia as the key foreign actor responsible for 
stabilizing western Syria.
    Assad's victories in 2018 have also protected Iran's 
entrenchment in western Syria. From its position in western 
Syria, Iran and its proxies have the potential to sustain 
missile volleys deep into Israel, which could force an Israeli 
invasion all the way to Damascus, which would likely spark a 
regional war.
    For the time being, Russia and Iran are generally in sync 
with their efforts in Syria. In response to Russia and Iran, 
and faced with its current reality of not being present in 
western Syria in a meaningful way, the United States is now 
pursuing a strategy of using sanctions, an indefinite military 
presence, and a refusal to support international reconstruction 
assistance for the Assad government; all designed to pressure 
Russia to force Assad's departure and withdrawal of Iran.
    While this strategy might work, the process of putting 
enough pressure on Russia to remove Assad and to get Iran and 
its proxies out of Syria will likely take years, perhaps even 
decades. That reality should be stated clearly to the American 
people by the administration. And Congress should carefully 
consider whether the United States should remain in Syria for 
many more years, or decades, in order to pursue an end state 
goal that may not be achievable.
    The administration might eventually achieve its goals in 
Syria with a grand bargain with Turkey. However, striking a 
grand bargain with Turkey should come on our terms, because 
without the strong support of the Trump administration, Turkey 
would not have been able to stand its ground against Russia and 
Iran and prevent Idlib from becoming a humanitarian nightmare.
    We have an interest in removing al-Qaeda and similar groups 
from Idlib, which can only be accomplished by working with 
Turkey. But there is no easy path for the United States and 
Turkey to uproot al-Qaeda and similar organizations from Idlib, 
because these organizations include a significant number of 
local Syrian fighters who are actively involved in the security 
and governance of Idlib. Turkey will need our support to do 
that, but we should not provide the support at the expense of 
our best partners in Syria, the multi-ethnic, heroic Syrian 
Democratic Forces Coalition, which is what Erdogan wants us to 
do. If Erdogan got his wish, that would directly undermine the 
U.S. stabilization mission in Syria, which could be a boon for 
ISIS.
    In conclusion, our investment in almost one-third of Syria 
means that we have a stake in the outcome of the war. We should 
strive for a post-conflict Syria that is stable and that is not 
a source of threats to the United States or its partners and 
allies. We should also take every opportunity to achieve a 
political settlement in Syria that protects the interests of 
our local partners.
    However, we should also be honest with the American people. 
If the United States is not prepared to use military force 
against Assad and his Iranian allies; it could take years, 
perhaps even decades, to force Assad out of power and to remove 
Iran from Syria.
    Thank you, and I look forward to this discussion.
    [The prepared statement of Mr. Heras follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
        
                      ----------                              

    Ms. Ros-Lehtinen. Thank you very much.
    Ms. Yacoubian?

  STATEMENT OF MS. MONA YACOUBIAN, SENIOR ADVISOR FOR SYRIA, 
     MIDDLE EAST AND NORTH AFRICA, U.S. INSTITUTE OF PEACE

    Ms. Yacoubian. Chairman Ros-Lehtinen, Ranking Member Boyle, 
and members of the subcommittee, thank you for the opportunity 
to testify on U.S. policy toward Syria.
    I am currently a Senior Advisor on Syria, the Middle East, 
and North Africa at the U.S. Institute of Peace, although my 
interest in Syria dates to 1985, when I was Fulbright student 
based in Damascus.
    I would like to note that the views I express today are my 
own and not necessarily those of USIP.
    Today's hearing is particularly timely. Syria's brutal 
conflict, now in its eighth year, is entering its most 
dangerous phase, posing a significant challenge to U.S. 
strategic interests.
    Two key developments account for this precarious time in 
Syria. First, the Syrian civil war is entering a messy and 
protracted end game. Unfortunately, the regime of Bashar al-
Assad, backed by the critical support of Russia and Iran, is 
likely to prevail. Assad's reliance on external patrons, 
especially Iran, threatens to upend the regional power balance.
    Tehran has provided unprecedented military support to the 
Syrian regime. Iran's military entrenchment in Syria threatens 
Israel's security, as well as the regional order. The old rules 
of the game establishing strategy deterrence between Israel and 
Syria no longer apply. Neither Israel nor Iran appears to be 
interested in an all-out war, but they may be on a dangerous 
collision course.
    Second, as the military campaign against ISIS enters its 
final phase, new conflicts and fault lines are emerging. Most 
urgently, the conflict between Turkey and the Syrian Kurds 
looms large, with the potential for broader destabilization. 
Potential hostilities between the U.S. and Russia pose a less 
immediate, but more significant threat. As the Assad regime 
seeks to expand its control further east, the possibility of 
clashes between Russia and its proxies and the United States is 
likely to increase.
    Finally, while ISIS has been ousted from much of Syria, the 
extremist movement could morph into a potent insurgency. ISIS 
has retained its capabilities, most notably, its ability to 
evolve and adapt to changing circumstances.
    Given these dangerous developments, the Trump 
administration's renewed focus on Syria is timely and 
important. While Syria poses significant challenges, the United 
States has policy options to shape an outcome more favorable to 
key U.S. objectives in Syria. These include the enduring defeat 
of ISIS, curbing Iranian influence, and shaping a political 
settlement to the conflict.
    I recommend adopting a 3D approach to Syria that leverages 
core elements of U.S. power: Defense, diplomacy, and 
development to pursue U.S. objectives in Syria. In my written 
testimony, I develop this strategy through three interrelated 
and mutually reinforcing baskets of policy options.
    The defense basket focuses on maintaining the 2,000-plus 
U.S. Special Operations Force presence in Syria as a 
foundational element of the strategy. The benefits of the U.S. 
military presence in Syria are significant; and include 
liberating the ISIS-held areas, training local hold forces, and 
providing an important source of leverage that enhances U.S. 
influence in Syria.
    The diplomatic basket emphasizes the need to rejuvenate 
U.S. regional diplomacy in three areas: Improving ties with 
Turkey; engaging Israel, Jordan and Russia to prevent 
unintended escalation between Israel and Iran, and deepening 
engagement with our European allies.
    The development basket highlights the importance of 
restoring U.S. stabilization assistance, which is critical to 
ISIS's enduring defeat. Encouraging Gulf allies and others to 
contribute to these efforts is important and to be commended, 
but there is no substitute for U.S. leadership, anchored by 
concrete commitments on the ground.
    I would like to conclude with an over-the-horizon 
perspective on Syria. Unfortunately, Syria could be an 
important harbinger of future Middle East conflicts. Three 
trends, embodied by the Syrian conflict, demand greater 
understanding in order to anticipate and better prepare for 
future conflicts in the region.
    First, the rise of ISIS, a new generation of Jihadists with 
a demonstrated capacity to innovate and adapt.
    Second, battlefield tactics that routinely transgress all 
laws of armed conflict, including the use of chemical weapons.
    And third, massive levels of civilian displacement that 
have overwhelmed the humanitarian assistance infrastructure and 
imperiled neighboring refugee-hosting countries.
    The Syrian tragedy will resonate for generations to come. 
It is essential to seize the opportunity to develop effective 
policy responses to the current conflict, as well as more 
forward-leading strategies for addressing future challenges.
    Thank you, and I am happy to take your questions.
    [The prepared statement of Ms. Yacoubian follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
        
                 ----------                              

    Ms. Ros-Lehtinen. Thank you. Excellent, excellent 
testimony.
    I am going to ask a question of you, Ms. Ghaddar and Mr. 
Heras. And I hope I am not doing a great disservice to your 
names. Mine is a very difficult name. I don't know how to 
pronounce mine, either.
    But, Ms. Ghaddar----
    Mr. Connolly. I am sorry, but isn't Ros-Lehtinen?
    Ms. Ros-Lehtinen. I don't know. It sounds like 
``Laytinen.'' It is Finnish. Go figure.
    Mr. Connolly. By the way, did you know I worked in----
    Ms. Ros-Lehtinen. I did know that.
    Mr. Connolly. All right. [Laughter.]
    Ms. Ros-Lehtinen. But did you know about Dana working in 
the White House?
    Anyway, this is a private, silly joke we have got going.
    Mr. Chabot. Madam Chair?
    Ms. Ros-Lehtinen. Yes, sir?
    Mr. Chabot. If I could just say, it is funny every time. 
[Laughter.]
    Ms. Ros-Lehtinen. It never gets old.
    Mr. Chabot. For anybody that knows what the heck they are 
talking about.
    Ms. Ros-Lehtinen. Old guys doing the same old hat skills 
routine. [Laughter.]
    Thank you.
    But, in your testimony, you were highlighting Iran's 
efforts to change Syria's demography, and you highlighted that 
Iran is ethnically and religiously cleansing Sunni communities, 
replacing them with pro-Assad Shia and Alawite groups. This is 
so alarming. You recommend that the United States work with our 
partners to ensure that refugees return to their properties and 
defend them from being conscripted into Assad's army. Can you 
tell us more about what Iran's objectives are with this 
demographic change? And related to that, how can we ensure that 
refugees that are first able to return safely to their home--we 
all, I am sure, want to go back home, but how safe is it for 
them? And second, resilient enough so that they aren't 
susceptible to Iran and Assad's influence?
    Thank you, Ma'am.
    Ms. Ghaddar. All right. Thank you. This is a very, very 
important question. Thank you for asking me to elaborate. I 
would love to.
    The demographic changes are actually happening in certain 
areas in Syria, and in areas that what I call useful Syria, 
what Iran really is trying to control, it is the land, the 
corridor, basically, that connects the Alawite coast to the 
Lebanese border and to the Iraqi border. So, this corridor, 
according to Iran, has to be protected. Because they need to 
protect it from inside, the communities who live along this 
corridor in the towns and villages that are located in this 
corridor have to be demographically changed.
    So, most of the Syrians, the Sunni communities who were 
pushed out to Lebanon from Homs and the suburbs of Damascus; 
and a lot of them were moved to Idlib. So, the refugees we see 
in Idlib, the displaced refugees--we see today in Idlib--are 
mostly coming from this land corridor.
    So, they used a strategy that relied on besieging, hunger, 
and forcing people to make deals and leave these towns. They 
send them to Idlib and Lebanon. And today, they brought in a 
lot of families of the fighters from Pakistan, Afghanistan, 
Iraq, and Lebanon. They are giving them, according to this new 
law--Law No. 10, that basically legalized these demographic 
changes--they give the refugees only 30 days in order to claim 
their property in person. Otherwise, they take it and they can 
give it to the new families. The idea behind this is not only 
to protect Damascus, but also to make sure that this corridor 
within Syria, their useful Syria is protected.
    I hope this answers the demographic changes part. Sorry, 
what was----
    Ms. Ros-Lehtinen. Now how do they reach the person 
supposedly to let them know that they have 30 days?
    Ms. Ghaddar. They just issued the law.
    Ms. Ros-Lehtinen. Yes.
    Ms. Ghaddar. Good luck, yes.
    Ms. Ros-Lehtinen. That is fine.
    Ms. Ghaddar. If you know about it, you know about it. If 
you don't know about it----
    Ms. Ros-Lehtinen. It could be anywhere?
    Ms. Ghaddar. Yes, exactly. So, some people knew; some 
people didn't.
    Ms. Ros-Lehtinen. And then, I asked about----
    Ms. Ghaddar. In terms of the safe return of the refugees--
--
    Ms. Ros-Lehtinen. Right.
    Ms. Ghaddar [continuing]. I will give you just an example 
of the case of the refugees in Lebanon and the Lebanese 
Government, which is today more and more becoming pro-
Hezbollah. They are trying to push the refugees out. Some of 
them actually went, some of them were forced to join the Assad 
army.
    The act of forcing them out is not humanitarian. So far, 
the refugees in Lebanon have been denied, the status of 
refugees. This policy of the government in Lebanon, which is 
basically Hezbollah's policy, is to make sure that they are 
pushed out without guaranteeing anything to them.
    So, they do not want to go that way. They want to go to 
their homes, but they are not going to their homes. They are 
going to Idlib. Those who left, they were pushed to Idlib, and 
this is what we are seeing today in Idlib, more and more 
pressure on the refugees who are actually forced to leave 
places like Lebanon.
    So, that is what I am saying, is that the Lebanese 
Government, the Lebanese army takes a lot of money from the 
U.S., right? In terms of equipment? There is a lot of leverage 
that can be used in order to force the Lebanese Government to 
make sure that refugees----
    Ms. Ros-Lehtinen. And we are not using it.
    Ms. Ghaddar [continuing]. Are not going to be forced to go 
to Syria.
    Ms. Ros-Lehtinen. Yes. But we have leverage because we give 
a lot of money to the Lebanese forces?
    Ms. Ghaddar. Yes, exactly. Exactly. You do have leverage. 
You can use it in order to force the Lebanese Government not to 
force the refugees out that way.
    Ms. Ros-Lehtinen. Not to force them out?
    Ms. Ghaddar. That way.
    Ms. Ros-Lehtinen. Okay. Thank you so much. You are such an 
expert in this.
    Ms. Ghaddar. Thank you.
    Ms. Ros-Lehtinen. Mr. Heras, you highlighted the risky 
nature of the administration's apparent policy of pressuring 
Russia to help achieve our stabilization goals in western 
Syria. And I had said in my opening statement that John Bolton, 
National Security Advisor, recently called Russia's promised 
sale of S-300s to Assad as ``significant escalation.''
    Does it seem to you that the administration is starting to 
acknowledge that Russia will, indeed, not be a useful partner 
for us in Syria? And even if we could pressure Russia to help 
us, what do you see as the pressure points? What is our 
leverage? We talk about where we have leverage with the 
Lebanese forces. What do we do with Russia? And if we aren't 
able to successfully pressure Moscow--and I don't know how we 
could ever do that--what alternatives are there?
    Thank you, and take your time.
    Mr. Heras. Thank you, Madam Chairman.
    I do believe that the administration is cognizant of the 
challenge that comes from asking Russia to apply pressure on 
Assad and Iran. Fundamentally, the challenge is that Russia is 
in a good position. Its military installations, the air base at 
Khmeimim in Latakia in coastal western Syria has been expanded. 
It is turning Khmeimim base into a hub of its future operations 
in the wider Middle East and North Africa; and now presents a 
strategic challenge to the United States. And it has expanded 
its Cold War era naval port that it had in Tartus, also, in 
Coastal, Western Syria.
    Russia is also embedded in reforming Assad's security 
forces. And the major challenge for Russia is to normalize 
Assad. And that will be its challenge. The longer that it takes 
for Russia to normalize Assad, and to try to open the taps for 
international reconstruction assistance, the more pressure 
Russia could potentially feel.
    And that is a potential way to unlock Russia's agreement to 
transition from Assad. The challenge, then, is: Can you get 
Russia to agree to remove enough of Assad's security and 
intelligence regime to make a meaningful, democratic Syria in 
post-conflict, that respects human rights and is willing to 
join the family of nations? And that is an open question.
    The second challenge is, does Russia have an incentive to 
remove Iran and its proxies from Syria? My understanding of how 
the administration policy is unfolding is that, in lieu of 
waiting for Russia, a maximum pressure strategy on Iran could 
potentially weaken its position in Syria over time because of 
the cost of maintaining its presence there.
    But I would emphasize that, both, trying to put pressure on 
Russia, and trying to put pressure on Iran will take time. The 
question is, will that time be spent productively by the United 
States to stabilize the area of Syria that we control?
    Ms. Ros-Lehtinen. And, Ms. Yacoubian, do you have anything 
to add to what we have just discussed? Feel free to comment.
    Ms. Yacoubian. Just a quick point. I would very much agree 
with Nick's analysis. And I think, in particular, if we are 
trying to understand what are the points of leverage with 
Russia, which is an excellent question, I do think this desire 
to eventually extricate itself in terms of reaching some sort 
of internationally-blessed political settlement is important.
    And I would point to the recent demilitarization zone that 
was negotiated with Turkey as an important data point in this. 
I certainly concur with the skepticism in terms of how long 
this will last. But the fact that at the last minute the 
Russians did, in fact, yield to what it saw as international 
pressure from the international community writ large, that the 
international community would not tolerate the blatant and 
widespread massacre, quite frankly, of Syrian civilians living 
in the zone, is evidence that Russia is trying to preserve some 
sort of negotiations, some sort of way to have some kind of 
longer-term political settlement to the conflict. That is where 
I think our leverage lies.
    And I would also agree that our presence on the ground is 
another important source of leverage. It indicates real U.S. 
skin in the game. It can translate into leverage at the 
negotiating table. It is, as Nick noted, at least 25 percent of 
Syrian territory, and it is important Syrian territory. It has 
oil and gas resources, water resources, valuable agricultural 
land. I think this is an important source of leverage, that we 
need to explore and understand better how we can bring that to 
the negotiating table, and how we can actually help influence 
the trajectory in Syria.
    Thank you, Madam Chairwoman.
    Ms. Ros-Lehtinen. Thank you so much. Really excellent 
witness testimony.
    And I am going to turn to Mr. Boyle and ask Mr. Chabot if 
he could do me a favor and chair for a little while. I have to 
return two phone calls. I sincerely apologize. You will be in 
better hands.
    And Mr. Boyle is recognized.
    Mr. Boyle. Thank you.
    Actually, I was going to get into the question of the issue 
of what leverage, if any, we have over Moscow. I found your 
comments encouraging--in a situation that generally is not 
encouraging.
    One challenge, about talking about this, is that there are 
so many different areas that we could go down in a short period 
of time. I am not going to use my time talking about what we 
could and should have been doing over the last 7 years. That is 
instructive to learn from and to apply to conflicts moving 
forward, but perhaps better to think now of what we can do.
    Just one last point, though, having said that I am not 
going to talk about the last 7 years. One point I do want to 
bring up, for those who think that this is a isolated Syria 
issue, I have not heard this link drawn by anyone except for 
me. What was the Syrian civil war--now I think it is more 
accurate to just say the Syrian war, because there are so many 
players there--has had such a destabilizing effect, its refugee 
crisis, more than 5 million or so pouring into European 
countries. It is my view that that has helped radicalize, one 
of the things that has helped radicalize, politics in a number 
of European countries.
    I would daresay you would not have had Brexit without the 
fact that, every single day the first thing you were seeing, if 
you were in Europe traveling at any point during that time, was 
the throngs of people crossing into the different borders and 
the lengths they were going to in order to flee a nightmare 
situation. That has had a psychological impact. I just know 
from relatives and friends I have in Western European 
countries. I don't think that that part of the story is really 
well understood in Washington.
    Be that as it may, moving forward, I have talked about--and 
we had my colleague Adam Kinzinger here a moment ago--he and I 
have both talked about, as cofounders and co-chairs of our 
Syria Caucus, the idea of still doing no-fly zones, roughly 
analogous to what we did in the 1990s with Iraq. Which, oh, by 
the way, succeeded.
    Not looking back and saying, well, if we had done it back 
then, back in 2011--as some people, we now know, argued at the 
time--if we were to at least do that now, maybe around Idlib, 
what would that look like? Is it practical, the risk of 
inadvertently escalating things specifically with Russia? You 
certainly run the risk there of a conflict on the ground that 
otherwise wouldn't have existed back in Iraq in the nineties. 
So, please explore for me to what extent you believe that this 
is a feasible option today, in moving forward. Any one of you.
    Mr. Heras. Well, thank you, Mr. Ranking Member.
    I agree with you that there is still potential to 
accomplish this objective. If you look at a map of Syria, we 
have essentially created a de facto no-fly zone or no-strike 
zone in our area of control, in the deconfliction zone. That 
includes Northern and Eastern Syria and that includes the al-
Tanf zone in the Syrian desert near Jordan's border.
    The Turks have also accomplished that objective in the 
Euphrates Shield Zone and, then, Afrin, and could potentially 
extend that to Idlib, depending on how that agreement takes 
place. Assuming that the United States and Turkey can come to a 
modus operandi for working together, you would have a zone 
stretching from the deserts of Deir ez-Zor to the highlands of 
Latakia, from southeastern Syria to northwestern Syria, that 
would encompass more than half of the country. And that would 
be a large space with which to protect Syrian civilians for a 
long time.
    Ms. Yacoubian. I certainly am sympathetic to the desire to 
create a no-fly zone over Idlib. I think the complexity lies in 
the Russian presence, in particular. As we know, when Russia 
entered the Syrian war in the fall of 2015, that was truly a 
watershed event that, in my view, turned the tide of the war in 
favor of the regime.
    I think that Russia's control of the skies in that area 
would make it a very precarious endeavor. And so, I think what 
might be important is to, in fact, look at the current 
demilitarized zone, look at the current ceasefire, and really 
bolster our efforts, perhaps together with Turkey, to ensure 
that that diplomacy ultimately succeeds. Again, I realize the 
odds are long.
    But, in my own view--and I am not a military strategist--I 
think that the obstacles and the complexities of establishing a 
no-fly zone over Idlib, however important or desirable that 
would be, I think are quite difficult. The other issue, of 
course, is we have to remember----
    Mr. Boyle. Let me just interject and say, obviously, if you 
were going to do it, it sure as heck would have been a lot 
easier before suddenly Russia arrived on the scene.
    Ms. Yacoubian. Exactly. So, that shifted dynamics. And 
then, of course, as we know, because of the successive 
``reconciliation agreements'' that have been negotiated with 
the Assad regime, there are a number of more hard-line 
extremists who now have also been shoved up into Idlib. Special 
Envoy McGurk has said that it is the largest al-Qaeda haven 
since 9/11. So, there is actually a real challenge and a real 
issue in the province with respect to extremist element that 
poses yet another challenge, I think, to U.S. interests.
    Mr. Boyle. Thank you.
    Mr. Chabot [presiding]. The gentleman's time has expired, 
but the gentleman is recognized for the purpose of offering----
    Mr. Boyle. Yes, I appreciate his indulgence, and I thank 
the witnesses for their answers.
    This says ``Madam Chairman,'' but let me say, Mr. Chairman, 
I ask unanimous consent to enter into the record a statement 
from 25 international jurists regarding the legal obligations 
of multilateral and donor countries for reconstruction in 
Syria, reflecting principles of international humanitarian law, 
human rights law, and international criminal law. This document 
has also been submitted to the U.N. and EU.
    And with that, I yield back.
    Mr. Chabot. Without objection, so ordered.
    And the gentleman's time has expired, and the chair will 
now recognize himself for 5 minutes.
    We thank Chairwoman Ros-Lehtinen for holding this important 
hearing.
    I want to thank the witnesses.
    As a long-time and senior member of the full Foreign 
Affairs Committee and a past chair of this committee; I would 
note that I have followed this issue from the very beginning. 
And many have spoken out on both on sides of the aisle. 
Unfortunately, this travesty; this horrific, ongoing saga 
continued, and tens of thousands, hundreds of thousands of 
people perished as a result. It is a travesty, it really is.
    Let me say, with the help of Moscow and Tehran, Assad has 
now regained most of the territory west of the Euphrates. We 
know he set his sights on retaking Idlib, and right now Russia 
and Turkey have agreed to a tenuous ceasefire, but this could 
easily collapse, as many others have in the past, 
unfortunately. And if it does, there is no question that we are 
going to see a catastrophic humanitarian crisis, as millions of 
Syrians flee Assad's brutality.
    We all hope that a peaceful solution, a peaceful 
resolution, of this part of the conflict can be reached. And I 
think we also urge the administration to continue to work to 
ensure that Assad does not carry out this plan to attack Idlib, 
which would result in so many lives being lost.
    There also remains other significant challenges to our 
interests. Most notably, Iran continues to extend its influence 
and develop a permanent presence in Syria. This threatens our 
closest ally in the region, Israel, and will remain an enduring 
problem for the foreseeable future.
    And I want to thank the Senate Foreign Relations 
Committee--I don't get to thank the Senate too often--but I 
would like to thank them for passing the Caesar Syria Civilian 
Protection Act. Assad is a butcher, and this legislation could 
help us to stop him from killing even more of his own people. 
So, I want to commend the Senate for that.
    Now, to a couple of questions, and I would welcome any of 
the panel to respond. The demilitarized zone announced by 
Turkey and Russia in Idlib last week, for the time being 
forestalled, as I mentioned before, the likely severe 
humanitarian crisis that many were expecting. What is the 
likelihood that the agreement will hold? And considering all 
the complexities of this war, this civil war, and war in 
general, how should we respond if it doesn't?
    Ms. Ghaddar, maybe I will go to you, since you didn't make 
it into that last round; we ran out of time. So, I will go to 
you. Thank you.
    Ms. Ghaddar. Thank you very much.
    Today, we know that this agreement gave a breather, right? 
It is not finalized. Turkey has only 1 month, today less than a 
month, in order to implement the conditions, in order to create 
the space.
    But we all know that Russia might take the opportunity to 
go back to strike, if Turkey didn't have enough time to do this 
or if it has difficulties, especially that there are a lot of 
radical groups, who did not agree to the agreement. So, this is 
going to be very complicated. It is not going to be easy for 
Turkey to do that.
    And we all know, that the Iranian troops have moved closer 
to Idlib. So, they are still preparing for the battle. This 
might actually happen.
    But there are a lot of lessons learned, actually. When we 
talked before about the no-fly zone, it is not the only 
solution. There are a lot of things that can be done, a lot of 
things that the U.S. can do in order to respond to such a 
thing.
    A lot of the people in Idlib--if we were worried about a 
humanitarian crisis--a lot of these people are actually not 
from Idlib. They are from different parts of Syria. They need 
to go back home. And this is what I talked about, about the 
demographic changes. You can avoid a big humanitarian crisis if 
it is facilitated the return of these refugees from Idlib, to 
their hometowns around Damascus and Homs, and other places 
where Hezbollah does not want them to go.
    Also, there are different things. For example, I give you 
the example of South Syria, Southwest Syria, where another 
agreement was made between Jordan and Russia. This agreement 
allowed Assad forces to go in and control the borders and 
enclose over the Golan Heights. And today, that is a problem 
because, if you don't have a third party who actually manages 
the conditions, and makes sure that this agreement is 
implemented, a third party that is not the local actors that 
made the agreement, it is not going to work. Because today we 
have the Assad regime in Southeast Syria, very close to the 
Golan Heights and Jordan border, and it is so easy for Iran to 
infiltrate Assad's army. Today we are making the war between 
Iran and Israel more possible than ever. This is something that 
we need to consider also when looking at Idlib, not to make the 
same mistakes.
    Mr. Chabot. Very good. Thank you very much. My time has 
expired.
    The gentleman from Illinois, Mr. Schneider, is recognized 
for 5 minutes.
    Mr. Schneider. Thank you.
    And I want to pick up exactly where you just left, Ms. 
Ghaddar, because you said, and I quote, ``We are making the war 
between Israel and Iran more possible every day.'' And that is 
a great concern. There are so many issues we need to talk about 
within the context of the war in Syria, but I want to focus on 
this one.
    It has been stated before: U.S. presence is exclusively in 
the Northeastern part of Syria. It is north and east of the 
Euphrates River. Iranian presence is south and west. There is 
separation between the U.S. and Iran.
    Again, it was said earlier, Iran's focus is on the Alawite 
coast, connecting with Lebanon, and then, the corridor linking 
to Iran, to the Mediterranean, that land bridge.
    Ms. Ghaddar. And the Iraqi border.
    Mr. Schneider. And the Iraqi border, correct. And then, 
through Iraq.
    And Iran's presence, in Syria, is becoming increasingly 
permanent. It is the integration into the military. It is the 
establishment of the permanent bases. And perhaps of greatest 
concern, is the development of indigenous missile manufacturing 
capability that allows, again, as it was stated earlier, for 
Iran to sustain a targeted, aggressive, expansive missile 
attack against Israel from two fronts, both in Lebanon and in 
Syria.
    Israel can defend herself, and it is necessary that we 
always ensure that Israel has the strategic advantage, the 
qualitative military edge to do so, but there are risks as time 
goes on. We talked about the incident that happened outside 
Latakia; but now, Russia is threatening to install the S-300s, 
which increases the risk to Israel's necessary actions to 
defend herself against Iran.
    All that to lead up to three questions that I will throw 
out to the panel.
    One, what are the long-term risks for the United States, 
and, in particular, our ally Israel, of not changing the 
dynamic in southwestern Syria?
    Two, what is the leverage we have over Iran now, and what 
should we be working toward in the future to try to achieve 
that?
    And three, it was mentioned in your testimony, that there 
is dissolutionment within Lebanon, with respect to Hezbollah. 
How might the United States work with Israel, work on our own, 
to increase--how can Congress work to increase and exploit that 
dissolutionment with Hezbollah to try to get some strategic 
leverage? And I will leave it to you, I think, to answer.
    Ms. Ghaddar. I have gone into a lot of details in my 
written testimony. So, just to be brief because we are short on 
time, and to allow my colleagues, also, to answer, I will just 
take the Lebanon question, and leave the rest to them.
    The discontent among the Shia community is huge. I have 
never seen the Shia community in Lebanon divided as it is 
today. And that is because of Hezbollah's regional role, the 
growing Hezbollah's regional role. I think the best way to do 
it, is to compete with Hezbollah where they are weak, compete 
with Iran in general where they are weak.
    And today, their weakness is financial. Today, their 
weakness is not being able to provide services. That is why, 
when I talk about an alternative in Lebanon, an alternative for 
the Shia in general, it has to be economic. It has to be about 
jobs. It is about livelihoods. And this is where Hezbollah 
cannot function today.
    I think my colleagues have more to say about the rest. The 
rest is all in my testimony.
    Mr. Schneider. Thank you.
    Mr. Heras. Thank you, Congressman.
    I would say that, as our policy stands now, we are allowing 
Russia, essentially, to be the referee between Israel and Iran 
in Syria. Which is a dangerous path to be on. Israel and Iran 
are, in effect, at war in Syria. Over the last year, Israel has 
conducted, by their own estimate, approximately 200 strikes 
inside Syria, and it is likely to increase.
    The challenge in the Southwest is we had the opportunity 
this summer to enforce the southwest de-escalation zone, and we 
passed on that opportunity. The armed opposition, some of whom 
that we had supported for the better part of half a decade, is 
now under Assad and are under reconciliation deals, as has been 
mentioned.
    We have very little leverage left in western Syria, except 
potentially in Idlib; where there is a witch's brew of armed 
opposition groups, including extremist groups, that we have to 
get rid of first before we can actually make that actionable.
    Mr. Schneider. Ms. Yacoubian?
    Ms. Yacoubian. Very quickly, my comment would really, 
basically, roll up with what both Hanin and Nick have said, 
which is to say, focus on where we are in the east. I do 
believe that Iran is fairly well entrenched in the west, and 
that might even be an area that we need further study on, the 
degree to which they are actually integrating into the Syrian 
military and security apparatus. How entangled are they? That, 
for me, is an open question, an important one.
    But I think in the east, our presence in the east is a very 
important bulwark against further Iranian expansion. And I 
don't just mean the military presence. I actually think even 
more important is the non-kinetic activities we are undertaking 
on the ground in Syria, the stabilization work, the work on 
governance, on restoring essential services, on providing, 
frankly, hope for the Syrians that are living there. In some 
ways, it mirrors or shadows what Hanin is saying is the most 
effective way of responding in Lebanon. So, too, I think, in 
eastern Syria. Providing hope, providing another source of 
livelihoods, governance, et cetera, is, I think in many ways, 
the most effective and perhaps sustainable counterwork to the 
expansion of Iranian influence.
    Thank you.
    Mr. Schneider. Thank you. My time has expired.
    I will close with one last thought. This committee has 
taken action, for example, with Hezbollah, the Hezbollah 
International Financing Prevention Act, and the subsequent that 
passed last week, the extensions or expansion of that. There is 
more we can do, we can stay focused with the Caesar Act. And I 
hope that this committee will continue to stay focused on this 
issue, in specific vis-a-vis Israel and Iran, but, also, more 
broadly, into the crisis in Syria.
    With that, I yield back.
    Ms. Ros-Lehtinen [presiding]. Thank you so much. And we all 
hope that as well. Thank you, Mr. Schneider.
    And now, I am very pleased to yield to Mr. Curtis of Utah.
    Mr. Curtis. Thank you very much.
    And thanks to our witnesses for being here.
    I am thinking about refugees, as much of the world is. As 
everybody knows, in this situation, the world, many countries 
are struggling to figure out how to deal with this.
    Is there a scenario, and at what level can we hope for 
seeing these refugees return to Syria? And what would we need 
to see before that was possible?
    Ms. Ghaddar. Very quickly, Assad has to go. If Assad stays 
in power, the refugees will be forced to join his army, upon 
their return. They will be forced to lose their hometowns, lose 
their land. The demographic changes are going to increase. The 
only way to stabilize the situation for the refugees to come 
back, without feeling the fear of being persecuted by Assad 
again is that Assad has to go. We have to start here, and then, 
there are a lot of things that can be done afterwards. But I 
think that is the only way.
    Mr. Heras. I would just build on what Hanin said, that 
Russia has weaponized refugee flows. The refugee flows from 
Syria have increased since Russia intervened militarily in 
September 2015. Russia is using refugees as a pressure point, 
particularly on the European Union, to try to renormalize 
Assad.
    And to build off a point that was made by Mona, the 
demilitarized zone was successful, in part, because the 
administration had made it very clear to Russia that, if it 
continued with an offensive against Idlib, it could kiss any 
type of pathway to reconstruction assistance goodbye. And that 
is a leverage point on the Russians.
    Ms. Yacoubian. I would concur with what both my colleagues 
have said. I would just add maybe two points.
    One is, I think Syrian refugees themselves say they are not 
comfortable returning, or at least many of them that I have 
talked to, they are not comfortable returning with Assad still 
there.
    I think we have to keep our eye on the issue of forced 
returns. This was mentioned earlier with respect to Lebanon. As 
the conflict continues--and as I have said, it is in its eighth 
year--we are seeing growing fatigue in refugee-hosting 
communities and neighboring countries, and growing pressures to 
force refugees back into Syria prematurely. This is something I 
think we need to keep an eye on.
    Finally, given the magnitude of the challenge, we also need 
to think about the prospect of a lost generation of Syrian 
children and difficulties with access to education, 
particularly amongst Syrian refugees and, also, inside Syria. 
This is an issue I think that has not only moral implications, 
but actually long-term security and strategic implications for 
the United States. So, I would urge us to consider and think 
about, ways to provide assistance, that addresses some of these 
issues, education, in particular.
    Mr. Curtis. Thank you. Very thoughtful responses.
    A lot of us around the world questioned how and when to 
respond to Syria's particular use of chemical weapons. I am 
curious, what level of violence or civilian casualties do you 
believe would be necessary to trigger a U.S. military response? 
Should the U.S. launch air strikes against Syria if chemical 
weapons are not used?
    Ms. Ghaddar. The Assad regime has killed a lot of Syrians, 
less than half with chemical weapons; more with regular 
traditional weapons. I think the military response should have 
been done before. Half a million deaths, it is a big number. 
But it is not just Assad, we have the Iranians as well. We have 
Hezbollah, the Shia militias. All of these guys have been 
killing civilians and causing a refugee crisis. And the 
Russians as well.
    So, last time there was a military response by the U.S., it 
targeted Assad's facilities. I think drawing a clearer line in 
the sand against Iranians in Syria, is also very important by 
not avoiding a confrontation with Iran, a military 
confrontation. I think Iranians do not want the confrontation 
more than anyone else, and they will try to avoid 
confrontation. A clear line in the sand when it comes to Iran 
is also very important.
    Mr. Heras. I would just say that, as it stands now in the 
Syrian Civil War, the only way for the U.S. to actually have 
leverage on the behavior of Assad and his allies, is to send a 
clear message that any type of future offensive against 
opposition-controlled areas would necessitate a response. 
Otherwise, there is no pathway for a successful U.S. strategy 
in this area.
    Mr. Curtis. Regardless of chemical weapons or not?
    Mr. Heras. Yes.
    Mr. Curtis. Thank you.
    Ms. Yacoubian. Very briefly because of time, what I 
outlined in my testimony is essentially the notion that, as I 
have said, we have seen this regime transgress all laws of 
armed conflict; in particular, though, I think most egregiously 
the use of chemical weapons.
    I think this poses a real challenge for the United States 
in terms of developing doctrine that finds, as I put it--I 
don't think I used the exact term--but the ``sweet spot,'' if 
you will, for the use of force, how to use force in a way to 
effectively deter the Assad regime from committing further 
atrocities, but in a way that does not force Syria into 
deeper--that doesn't escalate the conflict in ways that, again, 
also do not go to the benefit of Syrian civilians. I am not 
sure that we have figured that out yet. What does that use of 
force look like?
    Mr. Curtis. Yes, thank you. Unfortunately, I am out of 
time. I appreciate that. And I yield my time, Madam Chair.
    Ms. Ros-Lehtinen. Thank you so much. We value your service 
on our committee, Mr. Curtis. Thank you.
    And, I want to thank our witnesses for being here. You are 
fresh faces to our committee. I hope that it is the beginning 
of many other appearances that you will make on this most 
pressing humanitarian disaster, that is unfolding before our 
eyes, and we feel powerless. And that is a bad feeling for the 
greatest country in the world to be feeling.
    Thank you for excellent testimony. We look forward to 
hearing from you again. Thank you.
    Ms. Ghaddar. Thank you very much.
    Ms. Ros-Lehtinen. Thank you, ladies and gentlemen.
    Thank you to the audience, too.
    With that, the subcommittee is adjourned.
    [Whereupon, at 3:16 p.m., the subcommittee was adjourned.]

                                     

                                     

                            A P P E N D I X

                              ----------                              


         Material Submitted for the Record
         
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

              
Material submitted for the record by the Honorable Brendan F. Boyle, a 
    Representative in Congress from the Commonwealth of Pennsylvania
    
 
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 <all>
</pre></body></html>
